No. _______________
IN THE
SUPREME COURT OF THE UNITED STATES
RODNEY LAVALAIS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
CERTIFICATE OF WORD COUNT
NOW COMES Assistant Federal Public Defender Celia C. Rhoads,
court-appointed counsel for Petitioner Rodney Lavalais, and certifies as follows: As
required by Supreme Court Rule 33.1(h), I certify that the document contains 5,220
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct.
Respectfully submitted this 20th day of August, 2020.
/s/ Celia C. Rhoads
CELIA C. RHOADS
Assistant Federal Public Defender
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
celia_rhoads@fd.org

